 

 

IN THE SUPREME COURT OF THE UNITED STATES

LAMONT BENEDICT NELSON,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI TO THE UNITED
STATES COURT OF APPEALS FOR THE NINTH CIRCUIT

Motion for Leave to Proceed In Forma Pauperis

Pursuant to 18 U.S.C. ยง 3006A and Supreme Court Rule 39, the Petitioner,
Lamont Benedict Nelson, asks for leave to file a Petition for Writ of Certiorari to the
U.S. Court of Appeals for the Ninth Circuit without pre-payment of fees or costs and
to proceed in forma pauperis. The Petitioner was represented by counsel appointed
pursuant to 18 U.S.C. ยง 3006A in the district court and on appeal to the Court of
Appeals for the Ninth Circuit.

Respectfully submitted,

 

June 23, 2021 A
Federal Defenders of San Diego, Inc.
225 Broadway, Suite 900

San Diego, California 92101
Telephone: (619) 234-8467

Attorneys for Petitioner
